OFFICE OF INSPECTOR GENERAL




        UNITED STATES INTERNATIONAL TRADE COMMISSION

                                 WASHINGTON, DC 20436

January 29, 2008                                                            IG-FF-OOI


TO:           The Commission

FROM:         Acting Inspector   Gener~
SUBJECT:      Management Letter for the Fiscal Year 2007 Audit of the U.S. International Trade
              Commission's Financial Statements
              (OIG-AR-Ol-08)

This memorandum transmits the subject management letter in connection with the audit of the
U.S. International Trade Commission Fiscal Year (FY) 2007 financial statements. The audit was
performed by the independent public accounting firm of Cotton & Company LLP in accordance
with Government Auditing Standards issued by the Comptroller General of the United States,
and Office of Management and Budget (OMB) Bulletin 07-04, Audit Requirements for Federal
Financial Statements.

As part of the audit, Cotton & Company issued the attached report that discusses the
Commission's need to:
   • Strengthen controls over cash receipts and fixed assets;
   • Develop and document procedures for the reconciliation of obligations;
   • Establish current policies and procedures in certain areas in the Offices of Finance and
        Human Resources;
   • Keep current on financial statement reporting requirements; and
   • Continue efforts to fully comply with the Federal Manager's Financial Integrity Act
        (FMFIA) and OMB Circular A-123, Management's Responsibility for Internal Control.

The letter contains seven recommendations that will assist the Commission in improving
operations. The Commission agreed with the findings and presented actions, taken and planned,
which address the recommendations. The response is incorporated in the body of this report, as
well as in the Appendix.




                                               1




~~~~~~~~~-~~~--~~~~~~~~~~~~~_._ .. ~-_._.                                           __....   __ . _ _   ....
In connection with the contract, we reviewed Cotton & Company's report and related
documentation. The review disclosed no instances where Cotton & Company did not comply, in
all material respects, with generally accepted government auditing standards.

Weappreciate the courtesies and cooperation provided during this audit.




Attachment

cc:    Cotton & Company LLP




                                               2
 Cotton                                                         Cotron b· Company LU'
                                                                635 Slaters I..a ne     P: 703.836.670l

Colllpany                                                       4'" Floor
                                                                Alexandria, VA 22314
                                                                                        F: 703.836,0941
                                                                                        wwwcottoncpa.corn




January 15, 2008




Ms. Judith Gwynn
Acting Inspector General
U.S. International Trade Commission
Office of Inspector General

Dear Ms. Gwynn:

The management letter for the Fiscal Year 2007 financial statement audit of the U.S. International Trade
Commission is attached. The purpose ofthis letter is to communicate non-reportable control deficiencies
to ITC management. This letter is intended solely for the information and use ofITC management.

We would like to express our appreciation to all ITC personnel who assisted us in completing our audit.
They were always courteous, helpful, and professional.

Sincerely,

COTTON & COMPANY LLP




Colette Y. Wilson, CPA
Partner
                                MANAGEMENT LETTER REpORT
                        FISCAL YEAR 2007 FINANCIAL STATEMENT AUDIT
                           u.S. INTERNATIONAL TRADE COMMISSION


Cotton & Company LLP audited the financial statements of the U.S. International Trade Commission
(ITC) for Fiscal Year (FY) 2007. This document discusses control deficiencies involving internal control
that we feel warrant management attention. It also presents management's response to the findings and
recommendations in this management letter.

1.      Control over Cash Receipts

The Office of Finance did not deposit receipts in a timely manner in accordance with its established
policy. The Office ofFinance's Standard Operating Procedures, VII, Deposit Procedures, states that:

        Deposit Tickets are prepared at least once a month and hand carried to PNC Bankfor
        deposit to Treasury (exceptfor US Treasury checks). Jjthe amount accumulated is more
        than $1,500 before .the end ofthe month, than a deposit by the end ofthe week should be
        made ... US Treasury checks receivedfor deposit must be deposited in a Federal Reserve
        Bank within 5 business days.

We tested the cash receipts log for the period of October 2006 to August 2007. Of 40 checks received
during this period, 17 were not deposited within the required timeframe. ill addition, 18 checks were
recorded in the Cash Receipts log by the same financial technician responsible for depositing the checks,
thus indicating that adequate segregation of duties had not been established.

Untimely deposits and lack of segregation of duties increases ITC's risk for fraud and could lead to
inaccurate fmancial reporting.

Recommendation

We recommend that the Office of Finance continue to refine the cash receipts process by segregating
duties, training backups for the financial technician responsible for cash receipts, and ensuring that
deposits are made in accordance with established policies.

Management Response

Allfinancial technicians have been trained and informed ofthe process ofsegregating duties. The
Director ofFinance or Operating Accountant will review deposit activities on a regular basis to ensure
that deposits are made in accordance with establishedprocedures. Finance will review current cash
receipts procedures to see if any changes are necessary.

Target Completion Date: January 31, 2008

2.      Physical Inventory of Fixed Assets

The Office of the ChiefInformation Officer (OCIO) did not conduct a proper physical inventory, which
resulted in an inaccurate fixed asset sheet record maintained by the Office of Facilities Management
(OFM). OFM's procedure manual, Section 3350.3, Property Management, No.7, Responsibilities, states:




                                                     2
        c. The Director, Office ofFacilities Management (FM), is responsible for ...
        (3) Maintaining a list offixed assets, identifying items to be removedfrom the list, and
        annually reconciling this list with the financial records.

OFM maintained the fixed asset sheet. All fixed assets were located within the ocro and the ocro
submitted a property certification for fixed assts to OFM quarterly. However, the ocro did not conduct
thorough physical inventories by observing items and barcodes to confirm existence. We performed our
own physical inventory of all fixed assets and identified two disposed items that should have been deleted
from the fixed assets sheet and one item still in use that should have been included in the fixed asset sheet.
Management corrected the fixed asset sheet when these matters were brought to its attention.

The failure to conduct physical inventories properly prevents OFM from determining if property is
missing and, accordingly, prevents OFM from investigating potential losses. Additionally, OFM may
report inaccurate financial information to the Office of Finance for the General Property, Plant, and
Equipment financial statement line item.

Recommendation

We recommend that OFM and cro personnel ensure that physical inventories are properly conducted to
ensure the existence of property and accuracy of the fixed asset sheet.

Management Response

The Director OFMwill ensure that the physical inventories are properly conducted and documented on a
quarterly basis and the fixed asset sheets are accurate.

Target Completion Date: March 1,2008

3.      Reconciliation of Obligations

Obligations were not reconciled routinely and discrepancies were not timely resolved. rTC does not have
an integrated procurement system and relies on manual reconciliation of obligations to ensure that all
obligations were recorded in the Federal Financial System (FFS). The Office of Administration assigned a
contractor to conduct monthly reconciliations of obligations for three cost centers: Administration, cro,
and OFM. Each cost center provides the contractor with details of procurement actions from their own
records, which the contractor then compares to the ITC 545 report showing obligations by cost center and
object classification.

OMB Circular A-I23, Management's Responsibilities for Internal Control, Section n.E, Monitoring,
states:

        Monitoring the effectiveness ofinternal control should occur in the normal course of
        business. In addition, periodic reviews, reconciliations or comparisons ofdata should be
        included as part ofthe regular assigned duties ofpersonnel.

We requested reconciliations for May, June, and July 2007, and identified the following:

         •       The contractor did not perform reconciliations for Administration in Mayor OFM in May
                 and July.

         •       The contractor performed reconciliations for ero for the three consecutive months. We
                 noted these discrepancies:

                                                       3
                        Amounts for nine items reported by   cm differed from amounts    obligated in FFS
                        in the June reconciliation.

                        Eight obligations in FFS were not included in CIO's data in the June
                        reconciliation.

                        All seventeen items above were reported again as discrepancies in the July
                        reconciliation.

We also noted that the contractor did not perform reconciliations at yearend for September. Failure to
follow-up and resolve noted discrepancies in a timely manner prevents ITC from ensuring that all
completed procurement actions are properly obligated and obligations are accurately reported.

Recommendation

We recommend that Office of Administration develop and document procedures requiring reconciliations
to be completed each month and establishing time requirements for review and resolution of noted
discrepancies.

Management Response

 The Office ofAdministration will review procedures for monthly reconciliations to ensure adequate
followup is performed on any discrepancies, and in a timely manner. Written procedures will be
 developed andprovided to the Directors ofFinance, Facilities Management and the ChiefInformation
 Officer.

Target Completion Date: April I, 2008

4.      Blanket Purchase Agreement Calls

Blanket Purchase Agreements (BPAs) callers did not always log calls in a timely manner and several
callers exceeded pre authorized call limits established in the BP A. Once a call is placed to order
goods/services under an approved BPA, callers are required to log their orders into the BPA database.
BPA callers are aware of their call limits and should only place calls that are within those per-call
amounts. Logging calls into the BPA database in a timely manner is important, because the Office of
Finance personnel reviews this database to establish necessary obligations.

We learned through interviews with BPA callers that they did not always log calls in after the orders were
placed. They reported logging calls later in the month or when invoice arrived for payment approval. We
discussed this issue with the fmancial technician in Office of Finance, who confirmed that obligations
were not always pre-established for invoices received against BPAs. Some BPAs for recurring services,
such as for Metro Cards, did not require a "call" for services to be provided. Estimated amounts should,
however, be determined and posted to the BPA log.

During our review of randomly selected BPA activity logs, we identified calls with estimated and invoice
costs that exceeded authorized call limits:

        •       American Eagle Computer Products (BPA-07-0008): 3 of 19 calls
        •       Career Blazers (BPA-07-0001): 15 of34 calls
        •       Telesce Corestaff (BPA-07-0002): 2 of 5 calls




                                                     4
Failure to log BPA calls prevents obligations from being recorded in FFS in a timely manner. Obligations
should be recorded at the time the purchase is made to ensure accurate financial reporting and availability
of funds for payment of invoices received. Exceeding preauthorized call limits violates established
internal control procedures.

Recommendation

We recommend that the Office of Administration:

        •       Reiterate to BPA callers the necessity and requirement for logging BPA calls in a timely
                manner and staying within preauthorized limits.

        •       Require BPA callers to determine monthly estimates for recurring services and log in
                those estimates.

Management Response

The Director ofAdministration will issue a memorandum to all BPA callers and their supervisors with
instructions for compliance with acquisitions regulations, including logging in calls and estimates. The
Office ofAdministration will also conduct a review ofthe use ofBPAs and reduce the number ofactive
BPAs to a minimum.

Target Completion Date: March 1, 2008

5.      Policies and Procedures

ITC did not have policies and procedures for several areas essential for effective internal control and
accurate financial reporting, as follows:

        •       Office ofFinance had not updated procedures for payroll, yearend accounts payable
                estimation, and deprecation calculations. These procedures are essential for accurate.
                financial reporting. Failure to have such procedures could result in inaccurate financial
                reporting.

        •       Office ofFinance did not have well-defined procedures for reconciling all aspects of
                Fund Balance with Treasury. The current reconciliation does not provide a clear audit
                trail of monthly reconciliation results, noted discrepancies, and timely resolution of
                differences, thus necessitating discussions with Office of Finance personnel to fully
                understand the detailed work that has been performed.

         •       Office ofHuman Resources (ORR) did not have documented procedures for processing
                 of Personnel Actions. An ORR assistant processes all personnel actions, but a fully-
                 trained backup for the position had not been established. Without backup support and
                 documented procedures, ITC is at risk for improper and untimely processing.

Government Accountability Office's (GAO) Standards for Internal Control in the Federal Government,
states:

         Internal control is a major part ofmanaging an organization. It comprises the plans, methods, .
         and procedures used to meet missions, goals, and objectives and ... also serves as a first line of
         defense in safeguarding assets andpreventing and detecting errors andfraud." Furthermore,
          "internal control and all transactions and other significant events need to be clearly documented,

                                                      5
        and the documentation should be readily available for examination. The documentation should
        appear in management directives, administrative policies, 07~ operating manuals and may be in
        paper or electronic form. All documentation and records should be properly managed and
        maintained.

Recommendation

We recommend that the Offices of Finance and Human Resources establish, update, and document the
policies and procedures noted above.

Management Response

 The Director ofFinance will update and/or develop new written procedures to cover standard operating
.procedures for payroll, yearend accounts payable estimation and depreciation calculations. The Director
 ofFinance will review the current reconciliation process for the Fund Balance with Treasury, make
 changes ifnecessary and develop new procedures.

Target Completion Date: June 30, 2008

The Office ofHuman Resources will establish a desk reference for processing personnel actions. In the
interim, Human Resources staffmembers have shadowed the personnel assistant while she navigates the
FPPS system. Also, the Office ofHuman Resources in its submission to the Strategic Planning
Committee, requested an additional FTE to. support personnel actions processing. The request is pending
formal approval.

 Target Completion Date: Aprill, 2008

 6.      Financial Statement Presentations

 Office of Finance personnel were unaware of or unfamiliar with all federal financial reporting
 requirements. During our audit of the financial statements, we noted several line items and footnotes that
 were either incorrect or not included in ITC's financial package. Office of Finance personnel were either
 unaware of these matters, or the contractor assigned to review the statements did not bring the items to
 ITC's attention.

 Office of Management and Budget (OMB) Circular A-l36, Financial Reporting Requirements, requires
 reporting entities to ensure that all financial information is presented in accordance with generally
 accepted accounting principles (GAAP) for federal entities and with requirements outlined in the circular.
 During our audit ofITC's financial statements, we noted the following:

         •       The line item Imputed Financing was not prepared in FY 2006 for the Statement of
                 Changes in Net Positions, because management was unaware of the requirement.

         •       The footnote for Fund Balance with Treasury (FBWT) requires disclosure of fund
                 balances by type as well as by status. The total ofFBWT by status did not agree to the
                 total of fund balance by type. The difference related to additional line items required by
                 OMB Circular A-l36.

         •       The footnote for Liabilities Not Covered by Budgetary Resources was initially segregated
                 by entity and non-entity liabilities. This presentation of liabilities is inappropriate and
                 does not follow OMB Circular A-l36. All liabilities were amounts owned by ITC.



                                                      6
       •       Although ITC was aware of the requirement for reporting accrued funded liabilities
               related to Worker's Compensation due, Office of Finance personnel were unaware ofthe
               accounting model provided by Department of Labor to calculate actuarial liabilities for
               unfunded amountsalso required to be reported.

Recommendation

We recommend that the Office of Finance stay abreast of financial statement reporting requirements and
ensure that the contractor is performing a thorough review in accordance with applicable OMB circulars
and federal financial accounting standards.

Management Response

The Office ofFinance staffwill stay abreast offinancial statement reporting requirements through formal
or informal training, and will consider tasking a contractfirm to perform afull compliance review ofthe
statements.

Target Completion Date: Completed.

7.      Federal Manager's Financial Integrity Act

In FY 2006, ITC created a Management Control Plan (MCP) to satisfy management control requirements
of the Federal Manager's Financial Integrity Act (FMFIA) and OMB Circular A-123, Management's
Responsibility for Internal Control, and to support its assurance annual statements. ITC had not, however,
fully implemented the plan by performing all planned assessments and documenting results.

FMFIA was enacted to strengthen internal control and accounting systems throughout the federal
government and to help reduce fraud, waste, abuse, and misappropriation of federal funds. FMFIA holds
agency managers accountable for correcting noted deficiencies and requires that agencies annually
identify and report internal control arid accounting system problems and planned remedies.

Recommendation

We recommend that Office of Administration continue its efforts to review, refine, and implement control
activities and assessments documented in its MCP.

Management Response.

The Director ofAdministration will assign staffto receive internal control training; ensure the
Management Control Plan is updatedfor FY 2008, and complete risk assessments as scheduled in the
plan.

Target Completion Date: June 1, 2008




                                                     7
                                                                                        Appendix


                                                                                                   I
                                                                                                   \




 UNITED STATES INTERNATIONAL TRADE COMMISSION
                                                                                                   f
                                                                                                   I

                               WASHINGTON, DC20436

                                     C079-FF-00I                                                   I! .
 January 25,2008


  TO:            ActingInspector Gener~17 . ;;/)

  FROM:          ChW_J~ut7(~                                                                           I
                                                                                                       i



  SUBJECT:       Management Response to the Independent Auditor'sReportof the U.S.
                 International TradeCommission's Financial Statements forFiscal
                 Years2007 and2006AuditReportNumber: OIG-AR-OI-08 '
                                                                                                       I
 , Asrequired by Directive 1702.2, paragraph 12,I amproviding yourofficewith a
   written response to thefindings andrecommendations ofthe subject auditreport. We
                                                                                                       I
   haveconsulted with applicable Commission staffregarding the findings inthis audit'
   andarein agreement with all of the findings inthe report. Together, we areworking                   I
   aggressively towards a timelyresolution of eachoutstanding issue.

  1.      Control over Cash Receipts                                                                   I
  Recommendation: We recommend thatthe OfficeofFinance continue to refinethe
                                                                                                           I
                                                                                                           I
  cashreceipts process by segregating duties, trairiing backups for.the fmancial
  technician responsible for'cashreceipts, andensuring that deposits are madein
  accordance with established policies.               '                                                    I
, ManagementResponse: All financial technicians havebeentrainedandinformedof
  theprocessof segregating duties. TheDirector of Finance or Operating Accountant '                :\
  willreview depositactivities on a regularbasisto ensure that deposits aremade in
  accordance With, established procedures. Finance willreviewcurrent cashreceipts
  procedures to see if anychanges arenecessary.

  Target Completion Date: January 31, 2008


                                                                                                           I
                                                                                                           r

                                                                          _ _ _.__. J
                                                                                                  Appendix
 2.         Physical Inventory of Fixed Assets

Recommendation: We recommend that OFM and CIO personnel ensure that physical inventories are
properly conducted to ensure the existence of property and accuracy of the fixed asset sheet.

Management Response: The Director OFM will ensure that the physical inventories are properly
conducted and documented on a quarterly basis and the fixed asset sheets are accurate.

Target Completion Date: March 1, 2008

 3.         Reconciliation of Obligations

Recommendation: We recommend that Office of Administration develop and document
procedures requiring reconciliations to be completed each month and establishing time
requirements for review and resolution of noted discrepancies.

Management Response: The Office of Administration will review procedures for monthly
reconciliations to ensure adequate followup is performed on any discrepancies, and in a timely manner.
Written procedures will be developed and provided to the Directors of Finance, Facilities Management
and the Chief Information Officer.

Target Completion Date: April 1, 2008

 4.         Blanket Purchase Agreement Calls

Recommendation: We recommend that the Office of Administration:

       1.    Reiterate to BPA callers the necessity and requirement for logging BPA calls in a timely
             manner and staying within preauthorized limits.

       2.    Require BPA callers to determine monthly estimates for recurring services and log in those
             estimates.

Management Response: The Director of Administration will issue a memorandum to all BPA callers
and their supervisors with instructions for compliance with acquisitions regulations, including logging in
calls and estimates. The Office of Administration will also conduct a review of the use of BPAs and
reduce the number of active BPAs to a minimum.

Target Completion Date: March 1, 2008

  5.        Policies and Procedures

Recommendation: We recommend that the Offices of Finance and Human Resources establish, update,
and document the policies and procedures noted above.

Management Response: The Director of Finance will update and/or develop new written procedures to
cover standard operating procedures for payroll, yearend accounts payable estimation and depreciation
calculations. The Director of Finance will review the current reconciliation process for the Fund Balance
with Treasury, make changes if necessary and develop new procedures.

Target Completion Date: June 30, 2008
The,Office of Human Resources will establish a desk reference for processing personnel actions. In the
interim, Human Resources staff members have shadowed the personnel assistant while she navigates the
FPPS system. Also, the Office of Human Resources in its submission to the Strategic Planning
Committee, requested an additional FTE to support personnel actions processing. The request is pending
formal approval.

Target Completion Date: April I, 2008


6.       Financial Statement Presentations

Recommendation: We recommend that the Office of Finance stay abreast of financial statement
reporting requirements and ensure that the contractor is performing a thorough review in accordance
with applicable OMB circulars and federal financial accounting standards.

Management Response: Management Response: The Office of Finance staffwill stay abreast of
financial statement reporting requirements through formal or informal training, and will consider
tasking a contract firm to perform a full compliance review of the statements.

Target Completion Date: Completed.


7.       Federal Manager's Financial Integrity Act

Recommendation: We recommend that Office of Administration continue its efforts to review, refine,
and implement control activities and assessments documented in its MCP.

Management Response: The Director of Administration will assign staff to receive internal control
training; ensure the Management Control Plan is updated for FY 2008, and complete risk assessments as
scheduled in the plan.

Target Completion Date: June 1, 2008
